<html>
<title> - [H.A.S.C. No. 114-42] THE COUNTERTERRORISM STRATEGY AGAINST THE ISLAMIC STATE OF IRAQ AND THE LEVANT: ARE WE ON THE RIGHT PATH?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                                    
 
                         [H.A.S.C. No. 114-42]

                     THE COUNTERTERRORISM STRATEGY
                   AGAINST THE ISLAMIC STATE OF IRAQ
               AND THE LEVANT: ARE WE ON THE RIGHT PATH?

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 24, 2015



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-317                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                     
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                Peter Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member             
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Eisenstadt, Michael, Director, Military and Security Studies 
  Program, The Washington Institute for Near East Policy.........     5
Fishman, Brian, Counterterrorism Research Fellow, International 
  Studies Program, New America Foundation........................     9
Kagan, Dr. Frederick W., Christopher Demuth Chair and Director, 
  Critical Threats Project, American Enterprise Institute........     7
Robinson, Linda, Senior International Policy Analyst, RAND 
  Corporation....................................................     4

                                APPENDIX

Prepared Statements:

    Eisenstadt, Michael..........................................    50
    Fishman, Brian...............................................    70
    Kagan, Dr. Frederick W.......................................    59
    Robinson, Linda..............................................    31
    Wilson, Hon. Joe.............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    77
    Mr. Wilson...................................................    77
    
    
    
    
               THE COUNTERTERRORISM STRATEGY AGAINST THE

                 ISLAMIC STATE OF IRAQ AND THE LEVANT:

                       ARE WE ON THE RIGHT PATH?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                          Washington, DC, Wednesday, June 24, 2015.
    The subcommittee met, pursuant to call, at 2:33 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentleman, I call this hearing of 
the Emerging Threats and Capabilities Subcommittee of the House 
Armed Services Committee to order.
    I'm pleased to welcome everyone here today for this very 
important hearing on the counterterrorism strategy against the 
Islamic State of Iraq and the Levant [ISIL] also known in the 
region as ``Daesh.'' ISIL or Daesh continues to spread and 
create instability throughout the Middle East, northern Africa, 
and Asia. Their propaganda insidious campaign of influence 
extends globally, manipulating or recruiting young men and 
women who are willing to die for Daesh. The trajectory we are 
on is not promising.
    The President himself has acknowledged that we do not have 
a complete strategy to combat the threat. Defense Secretary 
Carter has acknowledged that the military is reviewing how to 
increase the effectiveness of our campaign and that an 
additional 450 troops would deploy to Iraq to expand the advise 
and assist mission. When I last visited Iraq in February of 
this year along with Representative Seth Moulton of 
Massachusetts, Elise Stefanik of New York, and Brad Ashford of 
Nebraska, there was talk that the Iraqi Army would begin taking 
back Mosul by the summer which now is leaving nearly 1 million 
people subjugated.
    Today, sadly, we see this is not the case. While often 
characterized as a terrorist organization, ISIL/Daesh fights 
and behaves like an army. They remain well-funded and 
resourced, and we saw recently in Ramadi that they do not 
necessarily need overwhelming numbers to win on the 
battlefield, only an ability to strike fear in the hearts of 
those they encounter. Today we will seek answers to very simple 
but serious issues of national importance.
    First, are we on the right path to defeat ISIL/Daesh? 
Second, what problems exist with our current counterterrorism 
strategy? And lastly, what other actions could be taken to 
counter this evolving national security threat? We will not 
answer all of the questions today, but what will be certain is 
the fact that it will take years to render ISIL/Daesh 
ineffective. Because of that, we cannot ignore the pressure of 
the declining defense budgets and the looming shadow of defense 
sequestration. As we examine our strategy against ISIL/Daesh, 
we must remind ourselves that if the defense sequestration 
continues, we will truly be fighting this threat with one hand 
tied behind our back.
    We are fortunate today to have before us a panel of expert 
witnesses. They are, Ms. Linda Robinson, a Senior International 
Policy Analyst with the RAND Corporation; Mr. Michael 
Eisenstadt, the Director of the Military and Security Studies 
Program at the Washington Institute for Near East Policy; Dr. 
Fred Kagan, the Director of the Critical Threats Project at the 
American Enterprise Institute; and Mr. Brian Fishman, a 
Counterterrorism Research Fellow with the International Studies 
Program at the New America Foundation.
    I would like now to turn to my friend, the ranking member 
from Rhode Island, Mr. Jim Langevin, for any comments he would 
like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our witnesses for providing us the benefit of your experience 
and your insight. I know what you are going to have to say is 
going to be invaluable to the committee. And I look forward to 
today's discussion, certainly.
    As we all know, we find ourselves in a very difficult 
circumstance when it comes to the interests of the United 
States and our allies and partners in the Middle East in the 
fight against ISIL. Our interests and objectives and those of 
our partners are not necessarily aligned. The ambitious U.S. 
strategy does not appear to be able to achieve the end state, 
but we are dealing with a serious enemy. And recent ISIL gains 
in Iraq and Syria demonstrate the need for a comprehensive, 
cohesive whole-of-government U.S. strategy as well as the 
cooperation of regional partners which has been challenged, at 
best, to enlist more support from our regional partners.
    Now, while I share the frustrations of many about the 
seeming lack of a visible strategy, I'm not unsympathetic 
regarding the immense complexity of interlinked and sometimes 
contradictory challenges that the administration faces. We face 
a morass of gray when it comes to our menu of options, a ground 
commitment to the region seems to be a win the battle, lose the 
war option, but we also simply cannot walk away.
    Similarly, swatting bad guys without a larger strategy in 
place really threatens to be another recruiting tool for our 
adversaries. So I look forward to hearing from our witnesses 
about what they think an effective U.S. strategy to counter 
ISIL should look like, and the situation fueling it across Iraq 
and Syria should encompass to achieve both near-term and long-
term success.
    Now, specifically, I would like to know what concrete 
actions you would recommend? What countervailing forces prevent 
these actions from being taken, and can those forces be 
mitigated? Are existing policies counterproductive? Can we have 
a coherent Syria and Iraq policy while negotiations with Iran 
are ongoing? What should postwar Syria look like? Are we able 
to align our objectives with those of our allies? And how do we 
engage more regions, nations in the region to be more proactive 
and involved in this strategy?
    Are we able to align our objectives again with those of our 
allies? And how do we regain the initiative to make ISIL 
reactive rather than proactive? And how do we fight their 
narrative? What assumptions and desires will we have to 
jettison in order to achieve a workable outcome? And are we 
sufficiently leveraging the power of the non-military means, 
including financial, at our disposal?
    So we have heard a variety of answers to these questions 
from the administration already, in testimony and otherwise, 
but I hope we can expand on our thinking here today. I am under 
no illusions that if we only change a few things about the 
United States approach to the region, peace will somehow 
instantly break out tomorrow.
    We must recognize that we are in a highly complex 
generational struggle against those who would pervert one of 
the world's great religions into a justification for the murder 
of thousands of innocents, including women and children, and 
the wanton destruction of an incredible piece of a shared human 
heritage in a region already gripped by a terrible humanitarian 
crisis born from years of strife and conflict.
    With today's discussion, I hope we can explore what a more 
peaceful region would look like and require, and ensure that 
our actions today and tomorrow are aligned in working towards a 
sustainable solution.
    So with that, Mr. Chairman, I want to thank you for holding 
this hearing, and the witnesses you have arranged to testify 
today, and with that, I yield back.
    Mr. Wilson. Thank you very much, Mr. Langevin. And I agree 
with you that we are in a generational conflict. And I look 
forward to working with you in a bipartisan manner on these 
issues.
    We are joined today at some time with Representative Martha 
McSally of Arizona, and Representative Mike Coffman of 
Colorado, who is here. They are members of the House Armed 
Services Committee, but not part of this subcommittee. So I ask 
unanimous consent that non-subcommittee members be allowed to 
participate in today's hearing after all subcommittee members 
have had the opportunity to ask questions. Is there any 
objection?
    Without objection, non-subcommittee members will be 
recognized at the appropriate time with each member here under 
the 5-minute constraint.
    Ms. Robinson, thank you again for being here today, and we 
look forward beginning with your testimony, and for the benefit 
of persons who are attending today, and I'm just grateful to 
see the number of people who are interested.
    It's a 5-minute section for each one of you. Then each 
member of the subcommittee will have the opportunity for 5 
minutes. And all of us are going to be a person beyond any 
characterization of inappropriate, and that is Pete Villano is 
going to keep the time, so as professional staff of the Armed 
Services Committee. So we are very fortunate to have such a 
capable person. Ms. Robinson.

   STATEMENT OF LINDA ROBINSON, SENIOR INTERNATIONAL POLICY 
                   ANALYST, RAND CORPORATION

    Ms. Robinson. Thank you, Chairman Wilson, Ranking Member 
Langevin, and members. Thank you for inviting me to speak on 
these important topics. I returned from Iraq 10 days--3 weeks 
ago from 10 days in Iraq and Jordan. This was my second 
research trip to the region this year. I will first address the 
military line of operations, then recommendations for improving 
the strategy that is currently in place, and finally, comment 
on the alternatives.
    My bottom line: The best option is the partnered approach 
because indigenous ground forces are required to defeat this 
formidable hybrid enemy in a lasting way. However, the ways and 
means currently applied are inadequate on both the U.S. and the 
Iraqi side. Syria is a much harder case, but there the alliance 
of the People's Protection Units and Free Syria Army may have 
potential.
    My prepared remarks include a detailed assessment of the 
five forces fighting ISIL in Iraq. I conclude that separately, 
they cannot defeat ISIL. But together, they might. Currently, 
however, they are stovepiped and inadequately coordinated and 
supported. The following suite of measures, if implemented 
quickly and in tandem, might achieve significant effect in the 
short term.
    U.S. advisors should be pushed out to all area commands in 
ISIL-threatened territory. They should also be allowed to embed 
with capable and trusted brigades such as the Counter-Terrorism 
Service and to move forward as needed to their command posts. 
Sending 450 advisors to Anbar was a first step, but belated. It 
had been urged months ago. Advisors cannot be effective if 
pushed out on the eve of battle. It takes time to gain enemy 
and friendly situational awareness, plan and conduct 
operations, conduct tribal engagement, coordinate artillery and 
air support, and gain influence to restrain abuses.
    My second recommendation is that U.S. Special Operations 
Forces [SOF] have their request granted immediately. They have 
requested Exelis satellite radios that are in U.S. Army stocks 
in Kuwait, and they want to give these to Iraqi units. These 
radios instantly and accurately mark the unit's location, and 
together with U.S. joint terminal air controllers [JTAC] at the 
brigade and area commands, this could have a transformative 
effect. The people I talked to in Iraq, however, did not argue 
for putting the joint terminal air controllers at the battalion 
and below level.
    One reason is that this would entail a much larger 
footprint for quick reaction forces, medevac [medical 
evacuation], air support, and logistic support, and the 
certainty of U.S. troops being in contact with the enemy. Many 
SOF officers also have come to believe that this ultimately 
increases dependency.
    My third recommendation is that the Baghdad combined 
operations center, the current nerve center of our effort in 
Baghdad, needs to focus more on coordination and planning at 
the national level rather than act primarily as a strike cell.
    My fourth recommendation is that the needed vehicles and 
heavy weapons be expedited to Iraq. The depots are full of 
small arms and ammunition, and in particular, I would urge that 
the Iraqi Counter-Terrorism Service needs be met immediately. 
They have been carrying the load of the fighting as some of you 
may know, they have been heavily attrited with over 2,600 
casualties although they are now in the process of rebuilding. 
They will reach their assigned level of 11,000 by next January.
    Finally, the air campaign could be made more effective 
within the current ROE [rules of engagement] by certain 
measures including increased ISR [intelligence, surveillance, 
and reconnaissance], more deliberate targeting, and additional 
target engagement authorities. For Iraq's part, it must 
incorporate more Sunnis into both the popular mobilization 
forces and the army. Sunnis, thousands of Sunnis want to fight. 
I met with a number of Tikritis who fought spontaneously to 
liberate Tikrit, but they now have no support. Passage of the 
National Guard legislation would be extremely helpful if it 
gives provincial governors a role. This would also regularize 
command and control of local Shia and Sunni forces for the 
long-term.
    Third, Iraq must commit to recruiting those forces or 
others into the Iraqi Army, put good leaders into key posts, 
and shift the current disposition which is heavily arrayed 
around Baghdad and in Shia areas. In return I believe the U.S. 
should support a long-term rebuilding of the ISF, the Iraqi 
Security Forces, because the alternative is Lebanonization, the 
entrenchment of militias.
    Iraq may dissolve, or it may find its way to a 
decentralized state. But taking actions that hasten that 
dissolution, such as unilaterally creating a large army of 
tribal forces could fuel further conflict. We have been down 
that road. The partnered approach may not work. We may be 
forced to fall back to containment. Though I believe that may 
be no more effective. I would not give up on the current 
partnered approach without aggressively implementing it and 
staying that course for some time. Thank you very much.
    Mr. Wilson. And thank you, Ms. Robinson, very much.
    [The prepared statement of Ms. Robinson can be found in the 
Appendix on page 31.]
    Mr. Wilson. Mr. Eisenstadt.

    STATEMENT OF MICHAEL EISENSTADT, DIRECTOR, MILITARY AND 
  SECURITY STUDIES PROGRAM, THE WASHINGTON INSTITUTE FOR NEAR 
                          EAST POLICY

    Mr. Eisenstadt. Chairman Wilson, Ranking Member Langevin, 
distinguished members of the subcommittee, thank you for giving 
me this opportunity to appear before you today to discuss the 
counter-ISIL campaign.
    Recent gains by ISIL in Iraq and Syria mark major setbacks 
in the 10-month-old campaign against the group and highlight 
fundamental flaws in the administration's strategy that need to 
be rectified if the coalition is to succeed. To ensure success 
in what will inevitably be a long struggle, the U.S. needs to 
first, address the means-ends mismatch in its strategy; second, 
bring its own policies and those of its allies into alignment 
with the strategy. And third, undermine the appeal of ISIL by 
ensuring the defeat of its military forces and the dismantling 
of its state.
    Now, first with regard to the means-ends mismatch. The U.S. 
has devoted inadequate resources in pursuit of what is for now 
an unrealistic goal, destroying ISIL. The U.S. needs to ramp up 
its efforts while lowering its sights, at least in the near 
term, regarding an organization that has demonstrated 
impressive regenerative powers. Its resilience is rooted in 
ideological and organizational factors and the characteristics 
of the Middle Eastern operational environment. Ideologically, 
ISIL supporters are unbothered by the criticism of 
establishment Muslim clerics whom they regard as servants of an 
illegitimate state system. Thus, efforts to delegitimize ISIL 
on religious grounds are likely to succeed only on the margins. 
Organizationally, ISIL can draw on manpower reserves from 
around the world and it has recently started establishing 
overseas affiliates, ensuring the survival of the ISIL brand, 
even if its flagship operation in Iraq and Syria is defeated.
    As for the operational environment, the proliferation of 
weak and failing states and the region's zero-sum politics 
ensure the survival of groups like ISIL. Thus, while coalition 
military operations may be attriting and in places rolling back 
ISIL forces, the coalition has not degraded the overall 
capabilities of an organization that remains on the offensive 
in a number of critical fronts. In terms of aligning policies 
and strategy, the United States and its partners have often 
pursued policies that have strengthened Salafi-jihadist groups 
such as ISIL, thereby undermining the U.S.-led campaign.
    First of all, American inaction in the face of the Syrian 
civil war, the Maliki regime's sectarian politics in Iraq, the 
widespread perception in the region that the United States is 
tacitly aligned with Iran, and the fact that America's first 
military strikes in Iraq were to save Yazidis, Turkmen, and 
Kurds, anybody but Sunni Arabs--all of these were a recruiting 
boon for Salafi-jihadist groups such as ISIL.
    Secondly, the United States insists that it is training and 
equipping the moderate Syrian opposition to fight ISIL while 
the opposition as well as America's partners to this effort 
want to fight the al-Assad regime. And this is a recipe for 
disaster.
    Third, the success of America's counter-ISIL strategy is 
hostage to its regional partners whose politics created the 
conditions for the rise of violent jihadist groups such as ISIL 
and Jabhat al-Nusra.
    Fourth, the United States will not succeed in its fight 
against ISIL in Iraq if it does not succeed in its fight 
against ISIL in Syria, where it enjoys a safe haven that it 
will use to threaten and undermine the state of Iraq.
    But it is not too late to correct course. So what is to be 
done? The solution is not another major U.S. ground operation 
that, absent changes in the region's politics would likely have 
to be repeated several years hence, but neither can we afford 
to walk away from the problem. The answer is rebalancing the 
administration's light footprint approach.
    Thus, the U.S. should close the means-ends gap by ramping 
up its advise-and-assist mission in Iraq and its train-and-
equip effort in Syria, rethinking its approach to training 
Iraqis and Syrians, intensifying its air campaign and 
preventing additional reverses as recently occurred in Ramadi 
and Palmyra. New victories for ISIL, even if ephemeral, will be 
fatal to the efforts convincing the Arabs sitting on the fence 
in Iraq to join the coalition against ISIL.
    The goal should be to overextend ISIL by pressuring it 
simultaneously in Iraq and Syria, thereby rendering it 
vulnerable to internal uprisings and external attack. However, 
closing the means-ends gap is not sufficient for success. The 
United States also needs to alter its policies and those of its 
partners that have undermined the military effort. The 
dependence of the U.S. strategy on its allies' willingness to 
alter their politics and policies is our strategy's Achilles 
heel.
    And finally, with regard to undermining ISIL's appeal, 
because so much of ISIL's appeal derives from its aura of 
military invincibility, its defeat would show that ISIL is just 
another failed ideological movement that brought only ruin to 
its supporters. Its defeat would mean no caliphate, no Islamic 
utopia, no glory and adventure, and none of the other things 
that have drawn so many to embrace it. The defeat of ISIL is, 
thus, key to undermining its appeal, discrediting its ideology, 
and demolishing its brand. And this, ultimately, is the most 
important goal of the counter-ISIL military campaign. But the 
administration's current light footprint approach permits ISIL 
to continue to accrue victories that undercut this effort.
    Now one final thought. The U.S. and its partners need to 
figure out how Al Qaeda and its affiliates as well as Iran fit 
into all of this. For if the coalition enfeebles or defeats 
ISIL, which is still a long way away, only to clear the way for 
the primacy of Jabhat al-Nusra in Syria and expansion of 
Iranian regional influence, the United States will have only 
succeeded in further fueling the region's ranging sectarian and 
geopolitical conflicts. The sooner Washington realizes this, 
the sooner it can work to avert an even greater disaster that 
it may be inadvertently abetting. Thank you.
    Mr. Wilson. Thank you very much, Mr. Eisenstadt.
    [The prepared statement of Mr. Eisenstadt can be found in 
the Appendix on page 50.]
    Mr. Wilson. And Dr. Fred Kagan.

 STATEMENT OF DR. FREDERICK W. KAGAN, CHRISTOPHER DEMUTH CHAIR 
  AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN ENTERPRISE 
                           INSTITUTE

    Dr. Kagan. Thank you, Mr. Chairman. Thank you very much for 
calling this hearing. And thank you to all of the members for 
attending and for giving this important issue your thought when 
there's so many other things going on.
    I agree with the ranking member, this is very hard. And I 
also have a lot of sympathy with anyone, including the 
administration, struggling to come up with a strategy to deal 
with this problem. And I do think there is a lot of room for 
reasonable people to disagree.
    I have offered in my testimony a fair amount of detail 
about what I think should be done in Iraq and what we might 
hope to achieve. I would like for the few minutes that I have 
here, to address what I think is a conceptual problem in the 
way that we have been discussing this matter, or one of 
several. And that is the continued refrain that there is no 
military solution to this problem. Of course there is no 
military solution to this problem. War is an extension of 
politics. There is never a purely military solution, or almost 
never, to a military conflict.
    However, this is a war, and any solution has to have a 
military component. And I think that we are too often 
conflating these two issues and not paying enough heed to what 
is required of the military component of any strategy that 
might be successful while telling ourselves that there is not a 
military solution. And I'm not offering a military solution.
    But I think that we are generally underestimating what is 
required of the military component of any strategy and although 
I would associate myself with almost everything that my 
previous two colleagues have said, I disagree with the notion 
that a larger footprint would create dependency or would be 
unwise. And I very much disagree with the notion that it is 
desirable to keep U.S. forces from engaging in combat with the 
enemy if our objective is to defeat this enemy and maintain and 
establish a solid alliance with Iraqis.
    It is extraordinarily hard to establish your bona fides as 
an ally if your position is, hey, we are going to watch you 
guys go out and fight. Let us know how that goes. And at the 
end of the day, we really need to think hard about this. Are we 
in this or not? Is this our war, or isn't it? If it is, then we 
need to be prepared to have our people serve alongside of 
Iraqis, not as they did in 2007, 2008, 2009. I'm not advocating 
putting combat brigades in and taking the fight away from the 
Iraqis.
    I entirely agree that partnership is the correct model. I 
think we probably need to partner down to lower levels. But 
that is something that I would be reasonably comfortable 
leaving up to commanders in the field, if they were given the 
discretion to make those calls. I think that having a black and 
white national level decision that says we are not going to do 
that, I think it's the wrong decision, and I think it handicaps 
our forces too much.
    I also think that we have a problem when we say there is no 
military solution, what's the political solution? In that we 
break in our minds what is in fact a real close relationship 
between those two things on the ground. The political situation 
in Iraq isn't just whatever the political situation in Iraq is. 
It is affected by what we do. It is affected by the military 
situation. It is affected by the actions we take. It is 
affected by what we actually offer.
    We don't like the fact that the Iraqis are too dependent on 
Iran. I don't like that. I understand why they are. We are not 
offering them enough to make it a reasonable bet to turn down 
what the Iranians are offering them and anger the Iranians to 
some extent and rely instead on us. Now, it may be that they 
wouldn't anyway, and it may be that we can't offer them enough, 
and so on, and so on.
    But as Linda Robinson said very eloquently, we have 
continually failed to try to do a number of things that where 
there was a reasonable expectation that they might succeed, and 
as long as we continue to fail to try to do things that have 
worked before, in admittedly different circumstances, we are 
going to continue to chase this.
    And so I think we need to understand that we need to see 
the military component of any solution as an element of the 
larger solution that interacts with the entire solution and 
understand that we have the potential to change the situation 
in ways that can also change the political discourse.
    And lastly, I would like to just make a brief comment on 
the subject of minimalism and the belief that we really should 
send in only as many forces, precisely try to titrate exactly 
how many forces we need on the ground and not have a single 
soldier there more than is necessary, which is, I recognize, 
not what my colleagues are advocating.
    It is a mistake to take that approach. Unexpected things 
happen. Ramadi comes under attack. Ramadi falls. You have 
setbacks in war. The truth of the matter is that if you do 
believe this is a war and if you do believe that we are in it, 
then you should also--you also have to believe that we need to 
make available the forces that are required and forces that 
might be required in dire circumstances should they arise. 
Thank you very much.
    Mr. Wilson. Thank you very much, Dr. Kagan.
    [The prepared statement of Dr. Kagan can be found in the 
Appendix on page 59.]
    Mr. Wilson. Mr. Fishman.

 STATEMENT OF BRIAN FISHMAN, COUNTERTERRORISM RESEARCH FELLOW, 
     INTERNATIONAL STUDIES PROGRAM, NEW AMERICA FOUNDATION

    Mr. Fishman. Thank you, Chairman Wilson, Ranking Member 
Langevin, members of the committee. Thank you for having me 
here.
    The Islamic State is a hybrid organization that aims to 
establish an extremely harsh form of Islamic law across much of 
the world. And to advance that goal it has five essential lines 
of effort. It is establishing a proto-state at the moment in 
Iraq and Syria. It is waging military campaigns to advance that 
in those two places. It is encouraging followers to 
independently attack hostile governments in the West, in the 
U.S. and Western Europe. It is building a network of 
affiliates, working to establish similar government structures 
around the world, and critically, as Mike Eisenstadt said, it 
is inspiring jihadis around the world to enter this 
organization, or to at least endorse its vision of a caliphate. 
We have to fight against all of these lines of effort if we are 
going to succeed against this organization.
    Critically, ISIS' [Islamic State of Iraq and Syria] 
fundamental goal and its basic operational vectors, with the 
exception of building an affiliate network and expanding its 
core operations to Syria, have been relatively consistent since 
October of 2006. In Washington we have continued to fail to 
recognize the persistence of this organization going back to 
the declaration of what was then called the Islamic State of 
Iraq.
    We don't often recognize our long history fighting ISIS, 
but we have effectively been fighting this organization for a 
decade already. And it is because of our sustained fight to 
this date that I, unfortunately, believe that our fight in the 
future is going to take at least another decade. And we need to 
be thinking about whatever policy we pursue it needs to be 
sustainable. It needs to be something that doesn't just stop. 
The worst mistakes we can make are to make a commitment and 
then pull away.
    From 2006 to 2008 we fought ISIS effectively, but we failed 
to destroy it. The ``surge'' of 150,000 American troops into 
Iraq is a top line number, including crucial special operators 
and a concerted effort to inspire the Awakening of Sunni tribes 
against the Islamic State of Iraq eliminated its ability to 
control territory and forced it to abandon large-scale 
insurgent and conventional military operations.
    Nonetheless, the group was not defeated. It remained one of 
the deadliest terrorist organizations in the world. It was 
continually from that period forward viewed by jihadis globally 
as the kernel of a future caliphate. It maintained a strong 
presence near Mosul, Iraq, throughout the period and in Syrian 
border areas. It established the bureaucratic structure for 
future governance and it sustained the ability to play spoiler 
in Iraqi politics by assassinating Sunnis and using terrorist 
attacks to encourage the Shia-dominated Maliki government into 
embracing its sectarian demons.
    There are some key lessons from that era that we should 
remember today as we think about our future strategy. One is 
that ISIS is vulnerable to military pressure. Despite its 
growth, the group's convention military power is limited and it 
can be disrupted with military power.
    Second is, ISIS is extremely resilient. It can shift its 
geographic base of operations and mode of organization 
relatively quickly. Operational setbacks will impact ISIS' 
global appeal, but the group will remain a viable caliphate to 
its supporters so long as it controls territory and continues 
to fight. And that means really any territory. It was 
continually viewed as a future caliphate even in 2009 and 2010 
and 2011 at its weakest moment.
    And even a diminished ISIS can operate as a political 
spoiler in Iraq and Syria. So what should we do in the future? 
ISIS will not be defeated so long as the Syrian civil war 
continues and Sunnis in Iraq live in mortal fear of their own 
government. Military action can contain ISIS and limit its 
ability to control territory and people, but such gains will be 
inadequate and fleeting without political resolutions in Syria 
and Iraq. The ugly reality is that the United States does not 
have policy levers to defeat the Islamic State in the near term 
without massive, and in my opinion, politically untenable 
intervention in both Iraq and Syria.
    This is going to be a long fight and our strategy has to be 
calibrated such that it is sustainable. So rather than scope an 
entire strategy, I'm going to just point to a couple of present 
issues. One, should the United States support Syrian rebels 
focused on deposing Assad, in addition to those focused on 
destroying ISIS? The answer is yes. And this is something that 
I have not believed continually, but I have come to this 
opinion. Although this approach carries significant risks such 
as increased Iranian troublemaking and weapons falling into 
jihadi hands, it will bolster relationships with our allies in 
the region including and especially Turkey, and increase 
pressure on the Assad regime to accept political compromise.
    That said we should not under any circumstances legitimize 
Al Qaeda-linked jihadi groups like Jabhat al-Nusra. Should the 
United States continue to funnel weapons through Baghdad to 
Kurdish and Sunni factions as opposed to arming them 
separately? I think yes for now. We have to reinforce 
governance where it exists, and the governance where it exists 
today still is centered in Baghdad.
    Should the United States increase the number of U.S. troops 
on the ground in Iraq, and this is where I disagree with my 
colleague Fred. Moderately increasing the number of troops may 
improve our operational outcomes, but it will not lead to the 
destruction of ISIS. We put 150,000 Americans on the ground 
before. We are talking about a tenth of that now. And I don't 
believe that this is going to have a decisive outcome because I 
don't believe that it is sustainable. A mini-surge can push 
ISIS into a box, a smaller box, but it will still have a box. 
And having that box is what matters.
    Our decade of war against ISIS has not produced a decisive 
outcome in large measure because our strategy and commitment 
has been inconsistent. To be successful in the next decade, we 
must have a clear, consistent, and sustainable strategy. The 
only good news is that jihadi organizations have a long track 
record of self-destruction and ISIS is laying the seeds of 
insurgency against it as we speak with its attacks on Sunnis, 
its fighting against other Syrian rebel groups. Over time they 
will collapse, but in order to produce that, we need to have a 
sustainable strategy rather than an intermittent one that 
reduces our credibility further in the region.
    Mr. Wilson. Thank you very much, Mr. Fishman.
    [The prepared statement of Mr. Fishman can be found in the 
Appendix on page 70.]
    Mr. Wilson. And I thank each of you. And Mr. Eisenstadt, 
you referenced it, and for each person I would be interested in 
your response beginning with Ms. Robinson about ISIL/Daesh 
being successful in building a global propaganda campaign to 
recruit foreign supporters from around the world, reinforcing 
its battlefield successes and creating an aura of military 
invincibility.
    Why has this global campaign been so effective, appealing 
to such a broad target audience worldwide, and what approaches 
should the Pentagon consider to counteract this campaign and 
reduce the appeal of potential recruits and supporters who can 
be trained overseas to return home and attack American 
families? Ms. Robinson.
    Ms. Robinson. Chairman Wilson, thank you. The brand of ISIL 
I think is so potent because they have been so enormously 
successful on the battlefield. They are tactically proficient 
and far more formidable than what U.S. forces faced when we 
were there. It is just an order of magnitude different. They 
are very adept at shifting between maneuvering guerilla 
warfare, launching new and diversionary attacks, evolving new 
tactics, and as you know, they trumpet their successes 
globally, which has drawn new recruits and affiliates.
    So that engine, I wish I could agree with Brian, but I 
think that it doesn't, as I see it, contain the seeds of its 
own demise. It is going to have to be stopped. And the 
information warfare I think has to be conducted with Muslim 
voices indigenous and worldwide. I just do not see the U.S. 
being effective in the lead.
    Now, General Terry, who is the Combined Joint Task Force 
commander, had been trying for months to get an Arab spokesman 
for that coalition. I think that is one of those unfortunate 
things. You wonder, why aren't people stepping up? There is 
now, I think the co-lead by UAE [United Arab Emirates] for the 
counter-messaging bin of activities, but I think that the 
actual content of the message needs to be looked at. And to me, 
there is no more effective message than one delivered by a 
disaffected former ISIL fighter.
    And I think we have got to get those voices, and those of 
the families of the ISIL fighters who have died, and what they 
have been lost to this way of life. And I just think we are far 
less adept at energizing that kind of messaging, although I 
would like to note, that the incoming two-star in Baghdad, 
General Richard Clark, is very key. He has honed in on the 
media and information aspect of this. Thank you.
    Mr. Wilson. Thank you.
    Mr. Eisenstadt. Yeah, I would agree with what Ms. Robinson 
said. And I would just kind of reinforce the point that nothing 
succeeds like success. And that is a major factor for their 
appeal. And conversely, I think the most important way to 
discredit the appeal of their ideology is by military defeat, 
as Brian said also. You know, if they are not holding terrain, 
if there is no caliphate, there is no Islamic utopia, it is a 
lot less appealing as an idea.
    I would also, you know, mention, and this is a topic which 
I'm actually starting to do a lot of thought about, so I don't 
have a comprehensive, you know, answer to you, but it seems to 
me that a lot of at least in the public, a lot of the 
government's--the administration's emphasis has been on 
countering their religious ideology, and trying to get Muslim 
voices to discredit it. And as I pointed out in my, you know, 
remarks, by and large, most supporters of ISIS don't really 
care what mainstream clerics think about them. They have their 
own clerics, and they believe that all of these other 
mainstream clerics are part of the problem.
    So I think, I get the sense that perhaps we are pushing, 
you know, on a locked door. That's not the way to go, by--you 
know, we can affect things around the edges by trying to 
counter their ideology and trying to discredit it, but I'm not 
sure that's the right way to go.
    In addition we have to recognize that in this fight, the 
government is not the most flexible and effective actor. And 
what we need is to partner with the private sector. We need a 
troll army of people online who we could provide information 
to, what the, you know, Combatting Terrorism Center at West 
Point used to do, publishing captured documents which provide 
insights into how ISIS functions and the way of how it is to 
live under ISIS control. So that millions of people online who 
are Muslims and who object to their message can use the 
information to fight them.
    And then the final point I would just say, we also need a 
counter narrative because you can't fight something with 
nothing. And people are flocking to ISIS because it fills a 
role in terms of their identity, in terms of providing them 
with meaning in life, and we need to be able to provide, or our 
allies probably more to the point, need to be able to provide a 
counter narrative which maybe speaks about inclusiveness, and 
tolerance, and the like.
    Again, these are half-formed ideas, but I think this gives 
us some vectors for, you know, how to think about this so----
    Mr. Wilson. Thank you very much. Dr. Kagan.
    Dr. Kagan. I will be very brief. We don't have a narrative 
problem. We have a reality problem. And we can talk narrative 
from hell to breakfast, but the reality is that we are losing 
and they are winning. And as long as that's the case, there is 
no narrative that's going to affect the situation very much.
    Mr. Wilson. Thank you. Mr. Fishman.
    Mr. Fishman. I agree very much with that. It is not the--we 
talk too much about their proficiency with social media, the 
issue is that their message right now is one of victory. And 
that's one that people can get behind. The one thing that I 
would say about what is a credible voice, I agree very much 
with what Linda said about former fighters.
    One of the distinguishing factors at an ideological level 
of ISIS from Al Qaeda, is that for them authority, ideological 
and messaging authority, comes from your proximity to a fight, 
to being in battle. Where Al Qaeda used to point to scholars 
that would sit around and write things, those of us in think 
tanks might like that but, you know, but for ISIS, the only 
thing that gives you ideological authority is being on the 
battlefield. And so if you are going to push back on them at an 
ideological level it is going to have to come from somebody 
with experience in the field.
    Mr. Wilson. Well, thank you very much. And I share your 
concerns that we need to have, Dr. Kagan, an example of 
success, to--but at the same time, I'm grateful that the House 
did pass in the Fiscal Year 2016 National Defense Authorization 
Act [NDAA] authority for the Department to carry out a pilot 
program to counteract the propaganda campaigns. And I 
appreciate the concept of a former ISIL supporter and/or family 
members of deceased ISIL supporters to carry out a campaign to 
counteract propaganda.
    And this provision we hope to be carrying through 
conference so the Pentagon has the ability to counter Daesh. It 
is my view that in a bipartisan manner here, that we understand 
the threat of jihadists who proclaim death to America, death to 
Israel. And I now proceed to Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman, and I think I have a 
question that any of the panelists here can answer. And I know 
we have talked before about how ISIL is very in tune to what is 
going on here culturally, you know, from the media, 
particularly social media.
    And they also have, I'm sure have seen news reports on the 
question about what to do about ISIL. What do you think that 
the ISIL leadership is thinking as far as their biggest fear is 
concerned? Do you think it's, you know, more air strikes from 
America? That we would eventually put troops on the ground? 
That we would arm factions within their so-called caliphate? 
What is the thing that makes ISIL fear the most?
    Dr. Kagan. I think that it's been very clear that the thing 
they fear the most is what happened to them that defeated them 
before, which is the Awakening. And they most fear that the 
populations that they live amongst will turn against them and 
will be supported against them. And I think they feared to some 
extent that we will assist that, but they have been carrying 
out a ruthless campaign of assassinations, as Brian pointed 
out, for many, many years now, precisely to forestall that 
option. Because I think that is the one that they regard as 
most permanently damaging and threatening to them.
    Mr. Veasey. In regards to that, you know, when they come 
into an area and they want to set up this caliphate, they want 
to do it, obviously, with Sunni Muslims. With so many Sunni 
Muslims being very distrustful of Shia Muslims, particularly in 
Iraq, how do you build the support for the people that they are 
in control of if you were to try to form some sort of a 
coalition, or arm them, or what have you, how can you--with 
that Sunni versus Shia element going on there, how can you make 
something like that real and sustainable?
    Dr. Kagan. Congressman, I think you really put your finger 
on what is in many respects the most important issue here, 
which is that we have, as Brian and my other colleagues have 
said, we have a sectarian war throughout the region and it is 
actually going global. And that sectarian war is in my opinion 
the largest, most powerful, long-term driver of mobilization 
and radicalization in both of these communities.
    As long as that sectarian war continues to rage, it is 
going to be very, very difficult to defeat ISIS, or Al Qaeda, 
or get Iranian-backed militias in the box or anything like 
that. And so that's one of the reasons why the notion of 
containment fails completely because containment retains this 
escalating sectarian civil war which has exactly the 
consequences that you described.
    Mr. Eisenstadt. I would just jump in one other thing that 
we just have to remember. That we were, as you intimated, part 
of the last effort to foment an uprising against ISIL's 
predecessor. And we, as a result of the past experience where 
we promised them, if you fight with us, and eventually the 
Iraqi Government against Al Qaeda, we will look after you, and 
we didn't.
    So we have--there's a problem with the credibility of the 
Iraqi Government and there is a problem with our credibility 
which will make it much harder to replicate the past success. 
In addition, there are various other factors that, you know, 
kind of play into the mix now that we just don't have a large 
presence on the ground the way we did in 2007 and after in 
order to actually change the psychological dynamic in the way 
that we need to in order to get the people, you know, people to 
rise up against an adversary or right now the Islamic State who 
is so vicious and cruel.
    Ms. Robinson. May I just add briefly, I think that it is 
important to recognize that Prime Minister Abadi has made more 
overtures to the Sunni community, certainly, than his 
predecessor did. And I think that there is room for, in Iraq, 
diplomatic outreach to try to support that and try to build 
links with the Shia majority with the idea of helping to 
encourage them that ultimately their interests can be served by 
these non-military pathways to resolution. For example, really 
laying out a roadmap for the decentralization of Iraq because I 
think that is ultimately the only way the country is going to 
hold together.
    I think also regionally, I would like to note Saudi Arabia 
finally opened its embassy in Baghdad that could provide a 
first step to build upon building relations between and 
contacts between Iraq and the Gulf States. But I think it's 
very important that Abadi do that outreach because, obviously, 
the Gulf States are quite concerned about the reality of Iraq's 
closeness to Iran.
    Mr. Veasey. Very briefly, with the last few seconds that I 
have, the White House's new hostage policy. How do you think 
that ISIL will view that?
    Mr. Fishman. I don't think it's going to impact their 
decision making very much at all, to be honest. I don't think 
they see that as their primary fundraising mechanism. Those 
people, as we know too well, are more valuable to ISIS as sort 
of propaganda tools than anything else.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you very much, Mr. Veasey. And as you 
cited, a sectarian war and conflict, I had the opportunity this 
year to meet with a descendant of the Prophet Muhammad who 
explained to me that the sectarian war has been ongoing for 
1,400 years.
    We now proceed to Sheriff Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and I think that's the 
biggest problem that you hit on is that sectarian portion of 
it. But let's talk about the Kurds for a moment. They have had 
some great success. And you talked about, you know, the arms 
that we are supplying the Iraqis that have to flow through the 
central government to the Kurds and we saw that that was not 
actually working very well. But supposedly, it is working 
better today.
    And I understand the reason for that, but aren't we sort of 
chasing our tail on this because we think that, you know, we 
are going to build some rapport with the Kurds to the central 
government in Iraq, and they don't feel any allegiance to it, 
you know, just because to give them some weapons, do you really 
think that narrative is going to change the outcome as it 
relates to the Kurds and Iraqi state itself?
    Dr. Kagan. Congressman, I think that it's--what would 
really change the dynamic is if we started treating Kurdistan 
as an independent state, and sending weapons directly to 
Kurdistan. I think the notion--we are not binding them to 
Baghdad by sending weapons through Baghdad, but we would be 
making a positive statement that we are effectively treating 
them as independent if we started sending weapons directly to 
Kurdistan.
    And I think that we really need to be careful of 
overestimating what the Kurds' capabilities actually are. And 
geography is a problem here because the Kurds are not going to 
clear Anbar. They are just not. And in point of fact, I 
actually believe that if you saw Kurdish forces push into Mosul 
and push into Al Diwaniyah province, you would start and we are 
beginning to see little indicators of this, an ethnic war as 
the Arabs in those regions push back against what they would 
perceive to be Kurdish encroachment on their territory and that 
would be overlaid on a sectarian war.
    So I think we really need to be careful. I'm all about 
helping the Kurds defend Kurdistan----
    Mr. Nugent. Right.
    Dr. Kagan [continuing]. I think we can do that, but I think 
we need to avoid as some people are trying--seeing Kurds as the 
solution to this problem.
    Mr. Nugent. Yeah. I don't think they are either. The Deputy 
Secretary of State recently was spouting numbers almost, you 
know, like in Vietnam, where we had 10,000 casualties, we have, 
you know, eliminated 6,000 pieces of equipment. What does that 
mean? I mean, is there any value in stating that, because 
that's not an indicator of winning. It's just an indicator that 
we killed people, and we demolished stuff.
    Mr. Eisenstadt. Yeah, I, you know, body counts are, as we 
know from our Vietnam experience, very deceiving and very 
dangerous. I will just say two points: First, it only matters 
if they have a finite manpower pool, and we need to know are 
they able to replace the people being killed or are they 
recruiting people faster than you are losing them. And I will 
leave it at that. That's, I think, the----
    Mr. Nugent. Well, let me ask you this, your opinion. Has 
ISIL been degraded since August of last year since we started 
this campaign or have they gotten stronger?
    Mr. Eisenstadt. Well, yeah, let me just complete my thought 
on that one. Attrition matters to the degree that they are 
overextended, and further overextending them might make them 
vulnerable to internal uprisings or further attacks along the 
borders of the areas they control. So I think attrition is not 
irrelevant, but it's dangerous as a metric that stands alone.
    In terms of their capabilities, look, there have been areas 
they have been rolled back, and there are areas that they have 
pushed back successfully. So I think--and they have shown an 
ability to move their forces from Syria to Iraq, and back 
again.
    So they overall, they have been attrited, but their 
capabilities remain overall relatively robust to the degree 
that they are able to maintain offensives and continue to gain 
ground in areas that are important for them. I don't think you 
could say that they have lost ground except for Tikrit which 
was I think important on a certain level symbolically, that 
they have lost ground in any areas that were critical for them. 
And they gained the provincial capital of Anbar which was an 
important psychological gain for them. And Palmyra is, too, 
important--in the context of Syria is very important.
    Mr. Fishman. I think one of the things to keep in mind 
about ISIS, or ISIL, is that it, to maintain function, to be a 
functional organization it needs to stay on offense. It needs 
to have that message of fighting to get recruits, to keep 
people motivated. It is not going to do a good job hunkering 
down and defending a specific territory. And I think that you 
see that in some of the ways it has exposed itself and I would 
argue that, you know, they are probably sitting around in a 
room saying, look, we have expanded in some places. We have 
lost in others. You know, does our geographic footprint need to 
fundamentally change? Did we try to take the right places? You 
know, where can we hunker down? Where can we actually be more 
secure? And I don't think they know that.
    My expectation is that they will be, the territory they 
control will contract by the end of 2015. It will still be a 
very viable organization, and one that is extremely resilient 
going forward, but I expect they will contract more this year.
    Mr. Nugent. Mr. Chairman, I appreciate it and I yield back.
    Mr. Wilson. Thank you, Mr. Nugent. We now proceed to Mr. 
Zinke.
    Mr. Zinke. Thank you, Mr. Chairman. I agree with your 
assessment of the Kurds, having followed the Kurds. I don't 
think they are going to look at Mosul primarily because you 
have about 500,000 refugees. If they attempted, the refugees 
can't go north, they can't go south. The only way they could go 
is in Kurd-held territory. I don't think they want that or 
could afford that.
    I also agree with your assessment on Syria; until we figure 
out what we are going to do with Syria, whether we are going to 
arm the Syrian Free Army, having the desert as an area of 
sanctuary to a degree with ISIS is problematic.
    But what I'm not hearing is Iran, Persia. And the influence 
in now eastern Iraq. Reports I think are validated that you 
have the Badr Army now moving to what is, in my experience was 
never more than about 7,000, the Shia militia seems to be 
operating at now 30 to 40,000 at full strength, seem to be 
either closely coordinated or directly controlled by Iran. You 
have senior military leadership embedded.
    And so my question is, and this has been a change of sea 
for me, because I looked at Iraq and thought there are multiple 
opportunities for us to check ISIS. And we have passed many of 
those. And now if we enter and we cede territory from ISIS, and 
if the result is simply for a Shia militia, which is to a 
degree controlled by Iran, to now if we are ceding territory 
from ISIS and simply having that territory being filled by 
Iran, and their continuing influence in Iraq, then what's the 
point? Do you share a concern, Dr. Kagan, about Iran's seem to 
be expanding influence particularly in eastern Iraq and the 
effects it has with disenfranchising further the Sunni 
population?
    Dr. Kagan. Absolutely. And it is not just eastern Iraq, it 
is Baghdad, and it is Anbar, and it is throughout Iraq. I think 
that there is a lot of complexity among the Shia militias that 
we're seeing on the ground and I think it is important not to 
lump them all together, not that you did.
    By the way, Badr just basically seized the governorship of 
Diyala Province which is going to be problematic from the 
standpoint of National Guard law, among many other things. But 
you have Badr, and you have Kata'ib Hezbollah [KH], which are 
basically arms of the Quds Force in my assessment and are 
basically commanded by Soleimani.
    You have Asa'ib Ahl al-Haq [AAH], which is not quite there, 
but close, but then you have popular mobilization forces that 
actually responded to Grand Ayatollah Sistani's call, and I 
don't believe that all of those are controlled by Badr, or KH, 
or AAH. And I do believe that there is a possibility that those 
forces, some of those forces could be integrated into the ISF, 
and are less under the Iranian control. I think the issue is, 
if we assess and I do agree with Linda Robinson that Prime 
Minister Abadi is much better than his predecessor, who was a 
major driver of sectarian conflict. And I think that the Prime 
Minister really actually has the right goals in mind.
    Mr. Zinke. We agree on that.
    Dr. Kagan. But I think he is being pushed hard by radical 
Shia militias and by Iranian advisors in a sectarian direction. 
And I think that it is very important that we offer him enough 
of an alternative, and that we overcome or try to overcome the 
military gap that Mike Eisenstadt pointed out, to let him--to 
give him an opportunity to try to unwind these militias from 
control of his state because he is not really sovereign in even 
what he controls, as long as Soleimani is commanding armed 
forces in his territory.
    Mr. Zinke. And Ms. Robinson, I agree with much of your 
assessment as well. How do you see the Iranian influence being 
checked and pushed out of the territory of Iraq? Because I 
think that's a core issue that as you continue the Iranian 
influence, how is it that we are going to push them back across 
in Iranian territory rather than territory of Iraq? Is it 
possible?
    Ms. Robinson. Well, I would like to start by quoting my 
esteemed friend Ambassador Ryan Crocker who said, Iran is not 
going to leave the borders of Iraq. It is always going to be a 
neighbor of Iraq. So it is a long-term issue, and I don't think 
we can wave a wand and make Iran or Iranian influence go away.
    But I think the critical question for the U.S. is, are we 
going to cede Iraq to Iranian influence or are we going to get 
in there and play the influence game? And I think that includes 
a much more robust outreach to a whole range of Shia forces. 
And I appreciate what Fred said, and also your comment, the 
Shia mosaic is quite complex. There are the standing, 
longstanding Shia militias we have already mentioned, but also 
new splinter groups that are supposedly less anti-American. 
They might be more receptive to outreach, and then these 
volunteers that came forward because Ayatollah Sistani said, 
come and defend your country.
    And he, of course, is, I think, a main critical figure so 
long as he is still alive to try to weave that, find that path 
between Iranian dominance and Shia-Iraqi nationalism, which is 
not dead, but much mitigated. So I think it is a long-term 
project, but really, we have to be, and it is part of a 
political line of effort that I think we have to open up and 
encourage our diplomats to be part of. Again, citing my friend 
Ryan Crocker who was fully engaged in that. Thank you.
    Mr. Zinke. Thank you. And thank you all for being here.
    And, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much, Mr. Zinke. Thank you for 
your service here and thank you for your service as a Navy 
SEAL.
    I will now proceed to the vice chairman of the 
subcommittee, Trent Franks of Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank all of 
you for being here. I have to suggest I am going to try to 
probably piggyback off of a couple of comments that have 
already been made, starting with the Kurdish issue. Last week 
during the HASC [House Armed Services Committee] hearing, I 
questioned Secretary of Defense Carter on the administration's 
strategy on ISIS, and, of course, you know, many of us know 
that even though that Dr. Kagan is correct about the Kurdish 
not being able to do--they are certainly limited, but they have 
been a bright spot in this situation, and we did pass an 
amendment in the full committee here to give direct support to 
the Kurds for that reason alone.
    But after the Secretary himself responded in steadfast 
agreement that the Kurds were making progress, then the State 
Department, the Defense Department, and the U.S. Ambassador to 
Iraq have derailed Senator Joni Ernst's efforts to do the same 
on the Senate floor last week with a very intense lobbying 
effort. And to quote a senior administration official, this--
this is the quote, it says, ``the U.S. gives weapons directly 
only to the Iraqi Government and to the Iraqi Security Forces, 
but the lines between them and the militias are blurry. U.S. 
weapons often fall into the hands of militias like Iraqi 
Hezbollah. There is no real command and control from the 
central government.''
    And that seems to underscore what I am saying here, this 
bank shot that the administration tries to do. Using the Iraqi 
central government as the distribution mechanism doesn't seem 
to be working very well.
    Do you think--and then, Dr. Kagan, I will ask for a quick 
answer, because I am hoping to get one more question in. Do you 
think that it is sound policy to just kind of hope for the best 
and hope some of the money will get to the Kurds, or do you 
think that we need to be more direct in our effort to assist 
the Kurds and the Peshmerga in doing at least some of the good 
work that they are doing?
    Dr. Kagan. Sir, I don't think hope is ever a good method--
--
    Mr. Franks. Yeah.
    Dr. Kagan [continuing]. But I think this goes beyond hope. 
And I think that as far as I have been able to hear and follow 
up on this, the Kurds are largely getting what they need, and I 
don't think it is a good idea to be providing support directly 
to Kurdistan.
    Mr. Franks. Help me understand that. Why not?
    Dr. Kagan. Because the--when you provide direct support to 
Kurdistan, and I understand and sympathize with the motivations 
of the committee and the members supporting that.
    Mr. Franks. Because they are the only ones kicking ISIS' 
rear.
    Dr. Kagan. Right. But they can only do that up to a point, 
and the problem is that by supporting the Kurds directly, you 
are making a statement unintentionally about Kurdish 
independence and the Kurdish role in----
    Mr. Franks. Well, I know we wouldn't want to hurt anybody's 
feelings here, but I guess I am just concerned about that, you 
know, somebody's got to fight ISIS, and this administration is 
not doing that.
    Dr. Kagan. I can't disagree with that enough, but the Kurds 
are not going to be able to do it either, and so we are going 
to have to find partners in Arab Iraq, and that means that 
there is a limit to how much we can afford to side with the 
Kurds and what is after all a----
    Mr. Franks. Who is a better partner than the Kurds right 
now?
    Dr. Kagan. Right now we--well, the partner that we need is 
in the Sunni Arab community, that is the partner that we most 
need. And the problem is that the more that you support the 
Kurds in Ninawa and along the disputed areas and the Kurds push 
into those areas, the more that we put ourselves against the 
Sunni Arab community that might otherwise join us in fighting 
ISIS.
    Now, we don't have a strategy that is going to get them to 
join us fighting ISIS right now and we need to address that, 
but I am afraid that the Kurdish arming--arming the Kurds 
directly could be counterproductive.
    Mr. Franks. Let me switch gears. I would just suggest to 
you that the Sunnis weren't fighting the ISIS very effectively 
before, where the Kurdish at least were trying.
    We know that the deadline for the P5+1 [United States, 
Russia, China, France, United Kingdom, plus Germany] nuclear 
negotiations with Iran is about a week away and this 
administration seems hellbent on doing a deal no matter what it 
is, and the only thing it seems to be willing--is possible to 
get in their way is the intransigence of the Tehran government 
themselves, that they can't--you know.
    So this concern midterm could have implications across the 
Middle East that is hard to fathom right now, and I--what 
effects do you see happening of the injection into the Iranian 
economy of billions of dollars, under such a potential 
agreement, to sponsor additional terrorism in the region? Do 
you think that them getting a great deal more money is going to 
somehow to make this all better?
    Dr. Kagan. The Iranian regime has been extremely clear that 
it has no intention whatsoever of altering any of its policies 
in the region or toward the United States, regardless of 
whether there is a deal. They regard us as an enemy and they 
intend to continue to pursue efforts to drive us from the 
region and destroy our allies.
    If they receive a significant influx of additional 
resources, they will put it, among other things, to the purpose 
of increasing their military and paramilitary capabilities 
throughout the region and throughout the world.
    Mr. Franks. Well, I couldn't agree with you more, Dr. 
Kagan.
    And I would just say, Mr. Chairman, that as dangerous as 
ISIS is, we need to fight them, but we cannot take our eye off 
of the Iranian nuclear threat. And I yield back.
    Mr. Wilson. Thank you, Mr. Franks.
    And we now proceed to Mr. Lamborn of Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this 
hearing. Thank you all for being here. And I would like to ask 
you about our targeting of ISIS assets. The New York Times 
reported on May 26 that, quote, ``American officials say that 
they are not striking significant and obvious Islamic State 
targets, out of fear that the attacks will accidentally kill 
civilians, but many Iraqi commanders and some American officers 
say that exercising such prudence with air strikes is a major 
reason ISIS has been able to seize vast territory in recent 
months in Iraq and Syria.''
    Dr. Kagan, would you agree with that assessment? And is it 
possible to step up air strikes while still, to the degree 
possible, preserving civilian lives?
    Dr. Kagan. I think that there is a trade-off between 
deciding that you are going to have a more effective air 
campaign and accepting a higher risk of civilian casualties.
    I think if your standard for civilian casualties is low, 
you are probably going to have a very hard time increasing the 
intensity of the air campaign, especially as long as you are 
not prepared to put forward air controllers on the ground, 
which would be something that would mitigate that, but I think 
that we have too high a standard from the standpoint of 
collateral damage and civilian casualties. I think that the 
truth is this is a war. And we always try to minimize 
collateral damage and civilian casualties, but a standard of 
effectively zero has, I think, done enormous harm to our 
ability to prosecute this war with the tools that we have at 
our disposal.
    Mr. Lamborn. Thank you. And then for any one of you, I am 
really concerned about Jordan's welfare. They have the direct 
threat of ISIS wanting to overcome them, and they have the 
indirect threat of floods of refugees from Syria especially 
overwhelming their infrastructure and their budget.
    What can we do to better help Jordan? What should Jordan be 
doing to help itself?
    Ms. Robinson. I am glad you raised that, because I did 
include mention of Jordan in my written remarks, and I think it 
is critical. Jordan, of course, does have a very effective and 
efficient military, police, and intelligence service, but that 
said, I think the waves of refugees pose a long-term threat, 
not just a humanitarian issue, but to the political and 
economic fabric of that country, as well as the surrounding 
region.
    And I think that trying to get more involved with those 
refugee populations, possibly through international 
organizations, but to deepen the understanding of what is going 
on there and help to ensure that they don't become subject to 
concerted radicalization campaigns or support networks, and to 
eventually find a disposition for these people, I doubt they 
are going to go--most of them will go back home, so this poses 
a very critical long-term threat.
    Mr. Fishman. Just one thing to add to that. I absolutely 
agree that we shouldn't expect that they are going to go home, 
and we should plan that this is--these are not just refugees, 
these are--many of these people are going to be new citizens 
essentially of Jordan, but this is a place where many of our 
Arab allies, I think, also have a responsibility, and we should 
be leading politically to pull them along. It is a place where 
they can contribute. Even if they are not going to contribute 
militarily, this is something where they can contribute, where 
money matters, and they can offer that.
    Mr. Lamborn. And either Mr. Eisenstadt or Dr. Kagan, 
anything to add to that?
    Dr. Kagan. I think it is--you are making an excellent 
point, and I am also very worried about Jordan and the strain 
that is being put on it. And I would just turn it in a slightly 
different way, because there are a lot of people in town who 
are talking about the need to raise an Arab army to fight in 
Syria and Iraq and the Jordanians should fight and the Saudis 
should fight and so forth, and you have highlighted one of the 
reasons why that is not really feasible. The Jordanians, I 
would not be enthusiastic about calling on the Jordanians to 
deploy large numbers of their own forces abroad, for a whole 
bunch of reasons.
    Mr. Eisenstadt. And I will just add, you can't worry too 
much about Jordan, because of its importance vis-a-vis our 
allies, Saudi, Israel, but that said, keep in mind they have 
been dealing with the problem of refugees for well over a 
decade now, or actually even longer, and their resilience and 
their ability to do so is remarkable, but that said, we can't 
take them for granted, they are absolutely a critical ally of 
ours. And we are doing things. They get financial aid, they get 
military assistance. I can't say whether we should be doing 
more or not, but I think we are focused on that issue.
    Mr. Lamborn. Well, and you probably know in the NDAA, which 
is going to be going to conference, we just voted on with the 
Senate, I think we put in 300-plus million dollars of very good 
military aid for Jordan.
    Thank you for being here.
    Mr. Wilson. Thank you very much, Mr. Lamborn.
    And we now--we have been joined by Congresswoman Martha 
McSally, of Arizona, the very first female air combat pilot to 
serve in Congress.
    Congresswoman McSally.
    Ms. McSally. Thank you, Mr. Chairman. And thank you. I am 
not on this committee, but I wanted to join this. I appreciate 
the testimony and your perspectives. I know there is a lot of 
talk about specifically the strategy about ISIS and I know you 
have--in the discussions on Iran talked a little bit more about 
the regional dynamic. A big concern that I have is the 
incoherence of a strategy in the region especially vis-a-vis 
Iran, the elephant in the room.
    We have got--we are focusing a lot on ISIS, which is 
important, but we are kind of looking through a soda straw 
without realizing some of the dynamics with our Sunni allies 
are related to the incoherence and the inconsistencies in how 
we are dealing with Iran, on the one hand doing everything we 
can to get to a nuclear weapon, on the other hand allowing 
them--you know, Soleimani to be the ground force commander 
while we are providing the air forces in Tikrit, and vis-a-vis 
what we are doing in Yemen.
    I mean, it is totally incoherent. So I would like to get 
your perspectives on that incoherence and what we could be 
doing better regionally to address not just ISIS, but also this 
larger state sponsor of terror on the globe, which is Iran, and 
then I want to follow up with some discussion on the air 
campaign.
    Mr. Eisenstadt. Yeah. If I could just start off by saying, 
first of all, we will never be able to iron out all the 
contradictions in our policies. There are just way too many 
moving pieces in this part of the world, and we will never be 
able to square the circle. But that said, I would argue that 
just as during the Cold War, while negotiating arms control 
deals with the Soviet Union, we pushed back against Soviet 
aggression and proxy activities around the world. We should be 
doing more in that regard with Iran.
    I am fully supportive of trying to put the relationship 
between the United States and Iran on a more normal basis while 
still acting to advance our interests and to defend the 
interests of our allies, which means doing more things in Syria 
with regard to the opposition there, doing things like we are 
doing, we are doing, to the credit of the administration, with 
regard to interdicting arms shipments to the Houthis in Yemen 
and some of the things we are doing in Iraq, but we needed to 
have been a lot more forceful than we have.
    And some of the things that the spokesperson of the 
administration has stated in public have sent the wrong signal 
in terms of acquiescing to what is seen in the region as Iran's 
attempts to establish a modern-day empire.
    So we need to--it is a matter of finessing or striking the 
right balance in our policy, and we have not hit the right 
balance. There is more we could do.
    Ms. McSally. All right. Dr. Kagan, any thoughts on that 
or----
    Dr. Kagan. I really want to second what Mike said and also 
what Brian said earlier. Absolutely, once you talk to one's 
enemies, you can negotiate with your enemy, you don't have to 
surrender every other interest that you have while negotiating 
with your enemy, and we should be pushing back.
    And what Brian said earlier was really, really important. 
We have to support opposition in Syria against Assad, 
otherwise, we have no meaningful opposition in Syria to 
support.
    Ms. McSally. Exactly. Thank you. Now, turning to the 
military strategy against ISIS, I was critical last week to the 
Secretary of Defense and to the chairman related to our air 
campaign. And I think we have got this false choice, really, 
narrative in the media: it is either an air campaign that seems 
to not be working or it is hundreds of thousands of boots on 
the ground.
    And the reality is it seems like we are stuck in a 
counterinsurgency mind-set that we have been mired in over the 
last 14 years, and we are forgetting that we have vital 
national interests in stopping ISIS that are separate and 
distinct from Iraq's interests in the region and what we are 
trying to get them to do.
    And so I feel very frustrated that we are not using 
airpower, as an airman, to the extent that we can use it, where 
we minimize civilian casualties, but we hit the targets that 
are legitimate in order to take out the command and control, 
the logistics, the leadership, everything it takes for ISIS to 
be able to be continuing to have the momentum.
    So it is very frustrating. And I have heard and read your 
testimony. I believe we need more intelligence, more JTACs, we 
need to be using airpower in a stronger way, we need to raise 
the bar. To save one civilian casualty, but then allow ISIS to 
murder thousands of people on the ground is absolutely 
contradictory. We have got to be able to gain the momentum and 
use airpower, and I just want your perspectives on that.
    Dr. Kagan. Well, I couldn't agree with you more. And I find 
it baffling that ISIS has been able to maneuver mechanized 
forces around this battlefield in airspace--while we control 
the airspace.
    Ms. McSally. Exactly.
    Dr. Kagan. We have an entire military designed to prevent 
people from doing that----
    Ms. McSally. Exactly.
    Dr. Kagan [continuing]. So we certainly can, and we--as you 
say, we certainly can do it with minimum casualties and we can 
do it without putting 150,000 thousand troops on the ground 
also, and we should do it.
    Ms. McSally. Exactly. Thank you.
    Mr. Eisenstadt. If I could just add, my understanding is 
that we have until recently perhaps had most of our ISR in 
Afghanistan to support the drawdown there, and now I guess--and 
if you look at the trend lines of ISR sorties in Iraq and 
Syria, they are trending up.
    So there is a--I suspect there is--some of that assets are 
being now redeployed to the fight there to support it, but that 
said, probably need more and we probably need to be more 
aggressive with our air strikes, and as Fred and others have 
said, strike a different balance with regard to the trade-offs 
with regard to our concern to collateral damage and the need to 
consistently be pushing ISIS back, and show that momentum has 
changed.
    Ms. McSally. And we can gain the space then, therefore, for 
the political solution, but if we are letting them get the 
momentum because we are not using our elements of military 
power that we have in the way that is best used, then we are 
surrendering.
    Mr. Eisenstadt. Well, that is a critical point, because 
every day Sunnis are making life and death calculations about 
which side do they throw their support behind. And if they see 
that--if they believe that after rising up against ISIS, 6 
months from now ISIL will be back----
    Ms. McSally. Yes.
    Mr. Eisenstadt [continuing]. Because of our fecklessness--
--
    Ms. McSally. Exactly.
    Mr. Eisenstadt [continuing]. They are not going to do that, 
and therefore, we need--there needs to be a consistent 
perception of progress being made, and we can't afford to allow 
them to claw back--ISIL to claw back territory that has been 
lost--or that was not under their control.
    Ms. McSally. Great. Thank you. My time has long expired. 
Thank you, Mr. Chairman, for letting me join the committee 
hearing today.
    Mr. Wilson. And thank you, Ms. McSally, for your insight 
and thank you for joining us today on the subcommittee.
    And I want to thank each of you. This has really been very 
helpful, and each one of you have had points that we need to be 
concerned.
    And I do have one request of Dr. Kagan. Two years ago you 
provided an extraordinary map indicating the spread of Al Qaeda 
and its affiliates across North Africa, Central Africa, and the 
Middle East, Central Asia. And for the benefit of our 
subcommittee members, if you could provide, if you do have, and 
I hope you do, an update of that map, it was extraordinarily 
helpful as I was explaining to my constituents the threats that 
we are facing from that region.
    If there is no further, we are adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             June 24, 2015

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 24, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
        
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 24, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. In your testimony, you call the suggestion of 
abandoning the central government in Baghdad and arming the Kurds and/
or Sunni tribes directly as ``superficially appealing.'' Can you 
provide us with more detail on why arming and supporting the Kurds 
directly to fight Daesh is bad for our overall strategy?
    Dr. Kagan. The Kurds cannot and should not fight ISIS beyond their 
ethnic boundaries. They have very little ability to project power 
outside of their home areas--their military forces are primarily 
designed for self-defense--and their military activities in Arab lands 
have repeatedly called forth violent responses and fueled recruitment 
for al Qaeda in Iraq and ISIS. Arabs in Ninewah, Kirkuk, and Diyala 
Provinces traditionally view Kurdish incursions into what they regard 
as ``Arab'' lands as provocations intended to annex those lands to a 
greater Kurdistan and conduct ethnic cleansing to Kurdify them. The 
Kurds fuel these fears somewhat by prominently displaying maps of 
``Kurdistan'' that show it lapping over into disputed areas and through 
various other activities and statements. I offer no opinion on how 
control of the disputed territories along the KRG border should be 
resolved, other than it should be resolved peacefully. I take no 
position on the historical rights of any group to that land. Nor do I 
accuse the Kurds of seeking to seize more land than might rightfully be 
regarded as theirs, still less of intending to conduct ethnic 
cleansing. But the perception among many Arab communities in these 
areas is different, and, from the standpoint of strategy, only that 
perception matters. Kurdish forces operating for an extended time in 
Arab areas of Iraq will generate ethnic violence that, in turn, will 
create conditions for the resilience of ISIS as a defender of the 
Arabs. The Kurds cannot, then, help defeat ISIS other than by holding 
their own boundaries, which they should be assisted to do.
    Mr. Wilson. You also indicate the importance of an inclusive Iraqi 
Army to counter the hollow force under previous Iraqi leader, yet the 
Iraqi Army has been unable to advance against Mosul and were not 
successful in maintaining control of Ramadi. What actions should the 
U.S. take to ensure that the Iraqi government continues to strengthen 
its central military for successful combat against ISIL?
    Dr. Kagan. The U.S. should increase its direct advice and 
assistance to the Iraqi Security Forces by embedding trainers, 
advisers, and forward air controllers with Iraqi Security Forces units; 
by deploying the full array of U.S. intelligence-gathering, analysis, 
and dissemination capabilities into Iraq; by providing significantly 
increased fixed- and rotary-wing aviation support, both attack and 
transport, to the ISF; by providing artillery support as necessary; and 
by deploying Quick Reaction Forces to protect the more dispersed U.S. 
footprint in extremis. The U.S. should simultaneously insist that any 
ISF units receiving such assistance reject and abjure assistance from 
Iranian security forces and the militias they control (specifically KH, 
AAH, and Badr). In a period of extremely low oil prices and, therefore, 
budgetary crisis in Baghdad, the U.S. should consider providing 
financial assistance to support the ISF as well.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Our comprehensive strategy to combat ISIL includes 
undercutting their flow of resources. Shutting down access to revenue, 
and closing the means by which funds flow to and from ISIL is a 
critical component of that strategy. The Department of Defense, the 
Department of State, the Department of the Treasury, the Department of 
Justice, and other intelligence and national security agencies all play 
a role in identifying and restricting ISIL's access to revenue, and 
revenue flows. I am interested to hear your thoughts on the 
effectiveness of the actions we are taking with respect to counter-
threat financing, the role the DOD plays in identifying networks and 
informing those decisions, the threshold for an organization to receive 
our attention with respect to terrorist financing action, and given the 
current environment, should that strategy and threshold being 
revisited? Would you say that counter-threat financing efforts are a 
primary, secondary or tertiary concern of our military and intel 
community? Finally, how effective have our economic pressures been to 
date and what is your assessment of the ISIL Counter-Financing Working 
Group?
    Ms. Robinson. I thank Ranking Member Langevin for this important 
question. The short answer is that counter-threat financing efforts 
have lagged other aspects of the counter-ISIL effort. One reason is 
that the Counter-ISIL Financing Working Group has been formed 
relatively recently. A mechanism for reporting progress on a periodic 
basis, as well as assessments to ascertain whether the current approach 
is effective, would be advisable. Another, more fundamental reason is a 
shortage of ground-based intelligence due to our current mode of 
operating and our shortage of intelligence assets. Generating robust 
and reliable intelligence flows is essential for this line of effort to 
yield results. There is a need for greater intelligence both inside the 
Iraq-Syria main theater of operations for ISIL as well as 
internationally. Since the largest sources of funding are internal, 
increasing intelligence about funding activities inside Iraq and Syria 
would be the logical priority. Most analysis currently suggests that 
internal sources of revenue are more important to sustaining ISIL than 
outside resources, such as donations from benefactors in other 
countries. That is to say, revenues from extortion of the Iraqi and 
Syrian population, illicit oil and gas smuggling, and sale of looted 
antiquities are considered to be major sources of ISIL funding at this 
time. Therefore, the priority for the counter-threat financing line of 
operations should be to gain precise real-time information about how 
the internal funding networks operate and to identify the node in that 
network where resource generation can most efficiently and effectively 
be disrupted and dismantled. The computers and communications devices 
seized in the May 2015 raid by U.S. special operations forces in 
eastern Syria that killed Abu Sayyaf, a senior member of ISIL's 
leadership cadre, yielded highly useful information about the 
organization's current illicit oil, gas, and financial organizations. 
Furthermore, the analysis from the computers and communications devices 
seized in that raid is ongoing, and that work will significantly 
enhance the U.S. government's understanding of how ISIL is operating 
today. Based on the research I have done on ISIL and on special 
operations forces, the importance of capturing such data and ISIL 
leaders and facilitators who can yield important current intelligence 
cannot be overstated. Certainly, vital intelligence can be gathered 
through remote technical means, but ISIL's (and other terrorist) 
leaders have grown increasingly savvy about protecting their 
communications and information. Therefore, when such targets present 
themselves, the objective should be to capture them, if at all 
possible, whether by U.S. or other forces, so that the intelligence can 
be collected and analyzed. This ultimately contributes far more toward 
achieving the strategic goal of degrading and defeating ISIL than 
airstrikes that kill individual leaders and facilitators but yield no 
intelligence dividend. Those leaders and facilitators can be replaced 
with relative ease. ISIL will not be defeated unless the United States 
and its partners shift to an intelligence-driven war. This is one 
important change in priority in how the war is fought that I would 
recommend. External resources also matter, of course. Two member states 
of the counter-ISIL coalition, Italy and Saudi Arabia, have agreed to 
lead a working group focused on this issue along with the United 
States. Within the U.S. government, the Treasury Department and the 
National Counterterrorism Center are the lead entities for pursuing 
counter-threat finance efforts aimed at both internal and external 
resources fueling ISIL. The coalition's Counter-ISIL Financing Working 
Group was formed relatively recently, as noted, and a detailed report 
card on its efforts would be extremely helpful. Finally, the role of 
Turkey as a conduit for illicit trade has been widely reported. The 
importance of stopping flows of goods and funds through that major 
transit point cannot be overstated. Turkey's agreement to allow armed 
airstrikes against ISIL from bases on its territory may be a hopeful 
sign that further progress on cross-border flows can be made in the 
remainder of the year. A final note regarding the understanding of ISIL 
financing networks. Historical information is useful, and can serve to 
identify previous networks, facilitators and financiers that might 
still be active. RAND has conducted analysis of documents captured from 
ISIL's predecessor organization, al Qaeda in Iraq, as well as research 
on currently active networks.*
---------------------------------------------------------------------------
    * See testimony on this subject by RAND political scientists Seth 
Jones (``Breaking the Bank: Testimony presented before the House 
Financial Services Committee, Task Force to Investigate Terrorist 
Financing,'' April 22, 2015) and Patrick B. Johnston (``Countering 
ISIL's Financing: Testimony Presented Before the House Financial 
Services Committee on November 13, 2014,'' Santa Monica, Calif.: RAND 
Corporation, CT-419, November 2014).
---------------------------------------------------------------------------
    Mr. Langevin. Ms. Robinson, I believe an effective strategy must be 
a coordinated, well thought out whole-of-government effort. You 
recently returned from Jordan and Iraq and noted the lack of 
coordination between the U.S. lines of effort, and even more 
concerning, a lack of consensus on the number of lines of effort. In 
your opinion, how can these disconnects be addressed to unify the U.S. 
strategy?
    Ms. Robinson. Inadequate unity of effort plagues every level of 
this war, and it will cripple the coalition unless it is remedied. At 
the highest level, no single synchronizer of U.S. government efforts 
has been named. U.S. government departments or agencies are designated 
the leads for one of the nine lines of effort, but there is no daily 
orchestration of the campaign in a whole-of-government or whole-of-
coalition sense. The White House is coordinating policy deliberations 
and decisions, but no entity has been charged with coordinating 
operations across the lines of effort and conducting periodic 
assessments. Possible models include an interagency task force or a 
czar, such as the Special Representative for Afghanistan and Pakistan. 
This coordination work could be done with a dedicated staff in the 
White House, but it might distract the latter from its proper focus on 
policy and strategy, as opposed to implementation. The U.S. military 
describes the effort as having nine lines, while the White House and 
the State Department have described it as having four or five; this is 
indicative, at a very superficial but important level, of a government 
that is not speaking or thinking with one voice. A great deal more 
thought should be given to the nature of ISIL, now that we understand 
it is not going to disappear quickly, and from that fashion the right 
strategy and the right architecture. Given the complexity of the Iraq-
Syria theater and the emergence of a significant network of ISIL 
affiliates, a division of labor between those two efforts might make 
sense. Within the Iraq-Syria theater, greater effort could be made to 
ensure that strategic, operational, and tactical actions across those 
two countries are synchronized. The Department of Defense leads two of 
the nine lines of effort, but the three-star command in charge of both 
Iraq and Syria, the Combined Joint Task Force-Operation Inherent 
Resolve, has not been fully staffed, according to the joint manning 
document. That suggests a lack of commitment to enable this primary 
warfighting command. I understand that that the Combined Joint 
Interagency Task Force-Syria has struggled mightily to gain the 
requested staff. Also, those two commands are not co-located--they are 
based in two different countries in the region--which creates an 
additional burden to foster a one-theater and one-team mentality. While 
in Iraq, I detected frictions between the military commands and the 
U.S. embassy, with the trainers and advisers clamoring for equipment 
but the security-assistance office unable to make the U.S. system work 
quickly enough to meet all of the needs. I also noted an unclear 
division of labor on the critical tribal engagement effort and the 
equally critical information operations effort. There is also an 
unfortunate reversal in the unity of effort that was achieved within 
the special operations community, which reached a high point in 
Afghanistan. These examples illustrate the variety of areas where our 
own command and control and unity of effort could be improved. Finally, 
the most distressing phenomenon I have observed is a tendency to make 
even tactical decisions at very high levels of the U.S. government, 
rather than entrusting highly qualified officers and civilian officials 
to make decisions at the speed the war demands. The delegation of 
appropriate authority to lower echelons--what the U.S. military calls 
``mission command''--should be closely examined to document what I 
believe to be an enormous gap between doctrine and actual practice and 
the inefficiencies and ineffectiveness that results. The reason 
underlying this reluctance to delegate authority is presumably an 
aversion to risk. Failure is part of war and casualties are part of 
war; any well-trained officer and official will seek to minimize risk, 
but at this juncture we may be minimizing risk to forces and maximizing 
risk to mission.
    Mr. Langevin. What should be the United States' role in fighting 
Islamic extremism, and what should be the roles of regional actors? 
Does the U.S. government possess the right tools to fight an 
ideological war, including information operations authorities? What 
more should our allies be doing to counter Islamic extremism?
    Ms. Robinson. In my view, the most effective voices in the struggle 
against Islamic extremism are Muslim voices. In addition, however, a 
particular subset may have even greater sway over those youths that are 
being attracted to ISIL's ranks. That subset is former ISIL fighters 
who deserted once they came into contact with the reality of the 
movement and its depravity. Family members and friends who have seen 
the toll taken on their loved ones provide another source of immediate, 
graphic testimony that can compete--in visceral, emotional terms--with 
the terrorist recruiters. The sophistication of this recruitment effort 
has been documented by an increasing number of enterprising journalists 
and other enterprises. The U.S. Congress has shown a great interest in 
this informational side of irregular warfare, which is the type of 
warfare that is in fact most common, and which the United States must 
make a commitment to understanding and grappling with. The United 
States can play an important role in understanding, devising, and 
funding effective information operations, even if the most effective 
voices in the actual operations are likely to be non- U.S. voices. The 
first step to effective information operations is achieving a deep 
understanding of the phenomenon. Much of the relevant discourse is now 
occurring on social media, and RAND has developed tools and methods to 
analyze large volumes of social media messages and derive operational 
insights from them. Understanding the conversation is only the first 
step; engaging effectively in that conversation is the next step, which 
is the current urgent need. We must also be able to understand what is 
in fact effective or ineffective, and for that more rigorous and 
meaningful impact measures are also sorely needed. The authorities 
issue has been tendentious. I recall many battalion commanders who 
lamented that they could call in a bomb strike but not issue a press 
release. For many years the U.S. government has been engaged in an 
internal bureaucratic and intellectual struggle over who within the 
U.S. government should be in charge of what type of information 
operations and how they should be conducted. This plays out in a given 
country between U.S. embassies and military commands, and at the 
Washington interdepartmental level. The easy default position is to 
call for the re-creation of the U.S. Information Agency, but this may 
not be the appropriate model for this era given social and 
technological changes. An independent commission could study this 
issue--without regard to bureaucratic equities--and propose policy 
changes and, if necessary, legislative action to ensure that the United 
States adequately grapples with this central front in today's irregular 
conflicts. From a military perspective, military information support 
operations units currently have the authority to support other 
countries' MISO capacity-building and conduct their own activities in 
the counter-terrorism realm, subject to the support of specific 
geographic combatant commands and U.S. chiefs of mission. What they 
most need is support to carry out those programs at a high-level of 
quality (in both substantive and technical terms) and to develop 
empirically-grounded measures of effectiveness. This is a vastly under-
resourced part of the special operations community. Among the specific 
technical needs are cyber expertise, regional and historical expertise, 
marketing and branding expertise, and a case study repository to create 
a body of knowledge for this nascent field. The U.S. State Department 
has been making a serious effort to develop an effective approach to 
counter-messaging and online engagement, but this is just one aspect of 
influence and information operations. As part of this work, other 
countries' efforts at de-radicalization programs should be closely 
studied to learn what has and has not worked and why, so that a body of 
knowledge on best practices can be developed and shared.<dagger> This 
knowledge can be brought to bear in the Middle East through willing 
states, nongovernmental organizations, and international institutions. 
A particularly vulnerable population is the youth among the millions of 
refugees and displaced people in Iraq, Syria, Lebanon, Jordan, and 
Turkey. The tragedy of today will only be compounded and extended if 
the next generation of young people are lured into this way of life.
---------------------------------------------------------------------------
    <dagger> See, for example, research conducted by RAND senior 
political scientist Kim Cragin: ``Resisting Violent Extremism: A 
Conceptual Model for Non-Radicalization,'' Terrorism and Political 
Violence, Vol. 26, No. 2, 2014.
---------------------------------------------------------------------------
    Mr. Langevin. How should the United States define and approach the 
threat of Islamic extremism?
    Ms. Robinson. Purveyors of violent Islamic extremism employ a 
distorted version of Islam to attract militants to a cause that seeks 
to undermine established governments, strike Western targets, and 
impose a draconian medieval type of rule backed by vicious, wanton 
violence. There is a debate over the correct terminology to use to 
define Islamic extremism. On one hand, some are wary to avoid 
antagonizing adherents to a faith, Islam, and unintentionally 
stimulating sympathy for or converts to violent forms of extreme 
Salafism or Wahhabism. On the other hand, some object to the anodyne 
term ``violent extremist organization,'' in that it does not 
specifically call out the use made of Islam to sway individuals into 
the path of violent jihad, senseless brutality, and, in the case of 
ISIL, nearly limitless atrocities carried out against both Muslim and 
non-Muslim alike. Not all violent extremists are Muslims, of course, 
and it is important to note the many stimulants and rationales that can 
be used in an effort to justify violent extremism and attract recruits. 
It is likely that approaches to dealing with various forms of violent 
extremism will differ. It is imperative, given the powerful attraction 
that groups like ISIL appear to hold over young and disaffected people 
in many countries, that specific measures be developed to address the 
phenomenon of violent Islamic extremism. The terrorist tactics that 
ISIL and other similar groups are using draw specifically, if 
erroneously, upon elements of the Islamic faith, its teachings, and its 
history to advance the organizations' ends, which are ultimately about 
power, not religion. The need to combat the distortion of Islam and 
attack the credibility of these organizations requires acknowledgement 
of the use being made of Islam and a superior knowledge of its true 
teachings. This is, to some degree, a struggle within Islam--
particularly Sunni Islam--and those members of that faith have every 
reason to lead the effort to debunk, discredit, and defeat those who 
would tarnish the name of a religion embraced by millions of 
peaceloving people around the world.
    Mr. Langevin. What are the risks and/or trade-offs in how U.S. 
policy and strategy defines and addressed the nature of the Islamic 
extremism threat?
    Ms. Robinson. As noted in my previous answer, a key risk is taking 
actions that prove counterproductive by actually stimulating greater 
support for terrorism, including additional converts to the ranks of 
fighters or self-radicalized individual attackers. A particular risk is 
creating a large and long-term footprint of U.S. military forces that 
terrorist groups can depict as invaders or occupiers. This can turn the 
focus away from the reality that most victims of Islamic extremist 
violence are, in fact, Muslims. One problem is that, within the U.S. 
military, the art of supporting others in the fight against terrorism 
is still insufficiently developed. Another problem is that many 
potential partners are also very weak and lack reliable capabilities 
that can be leveraged by the United States. Partnering cannot likely be 
reduced to a science, as there are many complex factors that will 
determine a good partner, the right conditions, and the degree and type 
of U.S. assistance that will enable a given partner to combat the 
terrorist threat in a credible and effective manner. But rigorous study 
and refined methods can certainly improve upon ``U.S. partnering'' and 
working ``by, with, and through'' other countries, as the U.S. Special 
Forces like to say. This approach and preference to support and work 
through other countries is now enshrined in U.S. National Security 
Strategy, U.S. National Military Strategy, and funded initiatives such 
as the Counter-Terrorism Partnership Fund. But not enough attention has 
been devoted to refining our partnership approaches, especially in the 
most common circumstances, where all available partners are flawed in 
some way yet, at the end of the day, are most likely a preferable 
primary actor to the U.S. soldier--at least in great numbers. This 
approach to warfare has not yet been elevated to the central position 
in U.S. military thinking, organization, doctrine, and personnel 
training and development that will be necessary for the United States 
to become truly adept in this realm. My own research for the special 
operations community has focused on deep study of their experiences in 
this realm, and on linking the tactical, operational, and strategic 
aspects of partnering in both concept and practice. One study outlines 
steps for improved interagency and special operations-conventional 
competence, as well as continued funding for those coordinating and 
training bodies developed over the past 13 years.=
---------------------------------------------------------------------------
    = Linda Robinson, Paul D. Miller, John Gordon IV, Jeffrey Decker, 
Michael Schwille, and Raphael S. Cohen, Improving Strategic Competence: 
Lessons from 13 Years of War, Santa Monica, Calif.: RAND Corporation, 
RR-816-A, 2014.
---------------------------------------------------------------------------
    Mr. Langevin. Our comprehensive strategy to combat ISIL includes 
undercutting their flow of resources. Shutting down access to revenue, 
and closing the means by which funds flow to and from ISIL is a 
critical component of that strategy. The Department of Defense, the 
Department of State, the Department of the Treasury, the Department of 
Justice, and other intelligence and national security agencies all play 
a role in identifying and restricting ISIL's access to revenue, and 
revenue flows. I am interested to hear your thoughts on the 
effectiveness of the actions we are taking with respect to counter-
threat financing, the role the DOD plays in identifying networks and 
informing those decisions, the threshold for an organization to receive 
our attention with respect to terrorist financing action, and given the 
current environment, should that strategy and threshold being 
revisited? Would you say that counter-threat financing efforts are a 
primary, secondary or tertiary concern of our military and intel 
community? Finally, how effective have our economic pressures been to 
date and what is your assessment of the ISIL Counter-Financing Working 
Group?
    Mr. Eisenstadt. I do not know the answer to all of your questions, 
but it is my understanding that counter threat financing is a primary 
concern of our military and intelligence community, because ISIL can't 
fight or govern without money, and because this is something that we 
can get our arms around, to some extent, and effect in a tangible way 
(unlike efforts to counter ISIL's appeal, which is a much more daunting 
task). My understanding is that we have had substantial success in 
diminishing ISIL's oil income, but ISIL's main sources of income are 
from taxes and criminal activities such as extortion, kidnap for 
ransom, and the sale of stolen goods (including archeological 
treasures). Coalition activities have not affected these sources of 
income.
    Mr. Langevin. What should be the United States' role in fighting 
Islamic extremism, and what should be the roles of regional actors? 
Does the U.S. government possess the right tools to fight an 
ideological war, including information operations authorities? What 
more should our allies be doing to counter Islamic extremism? [Question 
#7, for cross-reference.]
    Mr. Eisenstadt. The U.S. should play the role of enabler of its 
regional partners, as this is likely to be a decades-long struggle, and 
the U.S. needs to husband its resources, and build capacity among its 
regional partners so that any military victory is lasting. The U.S. 
could send 50,000 troops into Iraq and defeat ISIL in relatively short 
order and at some cost, but unless the politics of our allies change, 
and they develop an autonomous capacity to ensure internal security, 
ISIL will regenerate in 3-5 years and all this would be for naught. As 
for the ability of the U.S. government to fight an ideological war, I 
believe that we are neither framing the issue correctly, nor are we 
fighting it correctly. Various U.S. government documents talk about 
countering ISIL's ideology, countering its narrative, or exposing its 
hypocrisy, true nature, or false claims of acting in the name of 
religion. ISIL's appeal is only partly religious or ideological, and by 
overemphasizing this component, the USG seems to be overlooking the 
many other reasons that people join ISIL. And it is not clear how the 
military campaign against ISIL is tied to this effort to undermine 
ISIL's appeal. It seems that the two should be closely linked. So the 
U.S. seems to lack a proper understanding of how to prosecute this 
central element of the campaign against ISIL, and how all the elements 
of its counter-ISIL campaign contribute to this effort. In my mind, 
undermining ISIL's appeal should be the decisive line of operation of 
our campaign. But it is consistently listed as number six of our nine 
lines of effort.
    Mr. Langevin. How should the United States define and approach the 
threat of Islamic extremism?
    Mr. Eisenstadt. I would defer to my colleagues who specialize in 
this issue, though I would say that it depends on the context. In the 
United States, the emphasis should probably be on education, focusing 
on an individual's social connections, and preventing peer 
radicalization and recruitment via face-to-face and social media 
contacts. In the Middle East, the answer lies in defusing the conflicts 
in Syria, Iraq, and elsewhere that have driven the radicalization 
process, though it will be very hard to deal with the radicalization 
process in Europe and the U.S., without addressing its root causes in 
the Middle East. So the two are linked.
    Mr. Langevin. What are the risks and/or trade-offs in how U.S. 
policy and strategy defines and addressed the nature of the Islamic 
extremism threat?
    Mr. Eisenstadt. By pursuing a long-war strategy, as I recommended 
in response to question 7 [see above], there is a risk that the 
extremist threat will metastasize before the U.S. effort gains 
momentum. Indeed, the longer that ISIL and groups like it survive 
efforts to defeat them, the greater their appeal is likely to be. To 
win, they simply have to avoid defeat, and they have been doing much 
better than that. This is in effect what seems to be happening. And the 
U.S. does not seem to have successfully linked its military operations 
and its efforts to undermine ISIL's appeal. As a result, it has 
accepted defeats in Ramadi and elsewhere with relatively equanimity, 
stating that they are only tactical setbacks, whereas these battlefield 
victories for ISIL only feed its myth of invincibility, and are seen by 
ISIL and its supports as strategic victories.
    Mr. Langevin. Our comprehensive strategy to combat ISIL includes 
undercutting their flow of resources. Shutting down access to revenue, 
and closing the means by which funds flow to and from ISIL is a 
critical component of that strategy. The Department of Defense, the 
Department of State, the Department of the Treasury, the Department of 
Justice, and other intelligence and national security agencies all play 
a role in identifying and restricting ISIL's access to revenue, and 
revenue flows. I am interested to hear your thoughts on the 
effectiveness of the actions we are taking with respect to counter-
threat financing, the role the DOD plays in identifying networks and 
informing those decisions, the threshold for an organization to receive 
our attention with respect to terrorist financing action, and given the 
current environment, should that strategy and threshold being 
revisited? Would you say that counter-threat financing efforts are a 
primary, secondary or tertiary concern of our military and intel 
community? Finally, how effective have our economic pressures been to 
date and what is your assessment of the ISIL Counter-Financing Working 
Group?
    Dr. Kagan. I am not familiar with the specific threat-finance 
activities in which the U.S. Government is currently engaged, and so 
have no ability to respond directly to most of these questions. It is 
important to keep in mind, however, that threat-finance activities are 
extremely unlikely to have a major impact on ISIS as long as the group 
retains control of a large and populated area with its own natural 
resources. Threat finance activities have rarely been decisive against 
any significant opponent, but they are particularly ill-suited to one 
that can tax people and smuggle oil, as well as ancient artifacts--to 
say nothing of the ISIS traffic in human beings. It is nevertheless 
valuable to do everything we can to disrupt the global financial 
networks that support ISIS, al Qaeda, and other affiliated movements, 
and there is generally very little reason not to do so apart from the 
scarcity of resources the U.S. government can allocate to this problem. 
It is particularly valuable, I believe, to see threat finance 
activities within the framework of nexus targeting--seeking targets 
that cross over from terrorism to human trafficking, narco-trafficking, 
or other illegal activities. It is often easier to persuade regional 
partners or the international community to act against human 
traffickers or drug kingpins than against people we accuse of financing 
terrorism, and the overlap among these activities is often broad.
    Mr. Langevin. What should be the United States' role in fighting 
Islamic extremism, and what should be the roles of regional actors? 
Does the U.S. government possess the right tools to fight an 
ideological war, including information operations authorities? What 
more should our allies be doing to counter Islamic extremism?
    Dr. Kagan. The U.S. and its regional allies have common interests 
in defeating Islamist extremism that threatens the legitimacy of all 
states and has brought violence to all communities. The U.S. should 
play the role of a reliable ally in this fight. We should provide 
resources necessary to help our partners, including ground forces when 
and where they are required and can operate effectively. We should also 
provide the full panoply of our intelligence-gathering and analysis to 
our own warfighters and, with the minimum necessary caveats and 
restrictions, to our partners. The U.S. does not, in my view, possess 
the right tools to fight an ideological war on the ideological plane. 
To begin with, what agency would be responsible for fighting such a 
war? How, moreover, can the U.S. fight an ideological war while denying 
that the enemy has a religious-based (if, in my view, heretical) 
ideology? I do not know whether or not the U.S. government has the 
right legal authorities to fight such a war because we have not come 
anywhere close to developing a strategy for such an effort, to my 
knowledge, worth testing.
    Mr. Langevin. How should the United States define and approach the 
threat of Islamic extremism?
    Dr. Kagan. The U.S. must recognize that violent Islamism is a 
direct threat to Americans and to our way of life. We should define the 
threat to include those groups and individuals that seek through 
violent means to impose their vision of Islam upon unwilling 
populations when those groups also identify the U.S. or its allies as 
an enemy that must be attacked. We should be careful not to define this 
particular threat too broadly. Political Islamism--the idea that 
extreme versions of Islam can and should be imposed on populations 
through participation in political processes rather than through 
violence--is also a threat to us, our allies, and Muslims. But 
responding to political Islamism requires a very different strategy 
from the one required to combat violent Islamism. It is a mistake, in 
my view, to make no distinction between the Muslim Brotherhood and al 
Qaeda or ISIS. All three are threats, and the purely political groups 
can and often do create conditions propitious for the development of 
violent groups within their midst. But we should identify political 
Islamist parties not as ``enemies'' to be ``defeated'' in a war, but 
rather as political opponents against whom the U.S. and its partners 
must operate through the effective use of soft power. The best strategy 
seeks to drive a wedge between political and violent Islamist groups 
rather than driving them together by targeting both the same.
    Mr. Langevin. What are the risks and/or trade-offs in how U.S. 
policy and strategy defines and addressed the nature of the Islamic 
extremism threat?
    Dr. Kagan. I believe I have answered this in the preceding 
responses.
    Mr. Langevin. Our comprehensive strategy to combat ISIL includes 
undercutting their flow of resources. Shutting down access to revenue, 
and closing the means by which funds flow to and from ISIL is a 
critical component of that strategy. The Department of Defense, the 
Department of State, the Department of the Treasury, the Department of 
Justice, and other intelligence and national security agencies all play 
a role in identifying and restricting ISIL's access to revenue, and 
revenue flows. I am interested to hear your thoughts on the 
effectiveness of the actions we are taking with respect to counter-
threat financing, the role the DOD plays in identifying networks and 
informing those decisions, the threshold for an organization to receive 
our attention with respect to terrorist financing action, and given the 
current environment, should that strategy and threshold being 
revisited? Would you say that counter-threat financing efforts are a 
primary, secondary or tertiary concern of our military and intel 
community? Finally, how effective have our economic pressures been to 
date and what is your assessment of the ISIL Counter-Financing Working 
Group?
    Mr. Fishman. Finances are critical for an organization pursue and 
achieve its goals. As we know from our policy process, appropriating 
money is the final indicator that an organization values a particular 
line of effort. Jihadi groups are no different and we have seen various 
groups put their money where mouth is in different ways over the years. 
ISIL is different, however, than jihadi groups like al-Qaeda. Because 
the group controls so much territory, and such a large population, it 
is able to fundraise via ``taxation'', the appropriation of businesses, 
and seizing resources from its enemies. Unlike al-Qaeda, which depended 
largely on donations from wealthy supporters abroad, ISIL generates 
most of its money locally. ISIL does obviously have some connections to 
external entities for raising money. For example, it trades oil and 
antiquities with smugglers and operatives in both government-controlled 
Syria, Iraq, and Turkey. While we must crackdown on these networks, it 
is important to recognize that they represent political alliances as 
well as economic ones. One reason the Awakening in Iraq was so 
successful is that we were able to co-opt smugglers that were upset 
about the Islamic State of Iraq (al-Qaeda in Iraq) stealing their 
smuggling routes. Unfortunately, I do not think that we will be able to 
effectively constrain ISIL's fundraising without a significant troops 
presence on the ground. The incentives of ISIL's economic partners run 
against collaboration with the United States so long as we are unable 
to coerce them--and most of those networks operate in the black market. 
Importantly, jihadis have actively tried to build economic networks 
that are resistant to external pressure. After the failure of the 1980s 
Muslim Brotherhood uprising against Hafez al-Assad--Bashar's father--
Abu Mus'ab al-Suri wrote a widely-read lessons-learned treatise. One of 
the key elements was that jihadis must be able to fundraise locally and 
not be dependent on either foreign governments or foreign supporters, 
both of whom he considered unreliable partners.
    Mr. Langevin. What should be the United States' role in fighting 
Islamic extremism, and what should be the roles of regional actors? 
Does the U.S. government possess the right tools to fight an 
ideological war, including information operations authorities? What 
more should our allies be doing to counter Islamic extremism?
    Mr. Fishman. The United States does not have the right tools to 
fight an ideological war, especially one that is framed as undermining 
jihadi ideology. We ought to be focused on building an image of the 
United States and democracy that is positive, open, and appealing to 
people across the world, regardless of their religious or ethnic 
background. This is not a matter of acumen with social media, as it is 
often portrayed in the United States. If you review the Islamic State 
of Iraq's earliest discussion of social media--Youtube, Facebook, etc--
in 2008 and 2009 they largely talk about how they need to learn from 
the effective social media campaigns of American politicians. It's not 
about how slick they are with social media. The real issue is that they 
have a clear message--of violence, domination, and what they consider a 
utopian vision of a better world. Our problem is that we do not have a 
clear message; it's hesitant and bound by our larger lack of policy 
clarity toward the challenges in Iraq and Syria. Of course, our allies 
must do more on the ideological side as well. Saudi Arabia, which is 
obviously key to U.S. interests for a range of reasons, is a deep cause 
of the instability in the Mideast. The promotion of Wahhabi mosques 
globally as undermined progenitors of more pluralistic visions of Islam 
and fosters an environment that is easier for ISIL and others of its 
ilk to exploit. Ultimately, we will not be able to solve this problem 
without Saudi Arabia facing some of its own demons.
    Mr. Langevin. How should the United States define and approach the 
threat of Islamic extremism?
    Mr. Fishman. It is important to understand that, historically, not 
all jihadis have been salafis, but that most jihadis today are salafis. 
In other words, a particular brand of religious ideology is not a good 
way to define our enemies. That said, there is simply no denying that 
the backward-looking version of Islam propagated by many in Saudi 
Arabia (and elsewhere) implies certain political realities, including 
sectarianism and antipathy to non-Muslims. The United States should be 
waging war specifically against militant organizations that threaten 
U.S. interests directly, but we should also be working with our allies 
to stop their implicit soft power campaigns against us. The Saudi 
government tolerates and capitalizes on religious extremism. Even as 
they help us fight militant groups, they support the ideologues that 
foster those groups. This is unsustainable and self-defeating.
    Mr. Langevin. What are the risks and/or trade-offs in how U.S. 
policy and strategy defines and addressed the nature of the Islamic 
extremism threat?
    Mr. Fishman. There are almost too many tradeoffs to list. Even 
though religious ideology is central to how most jihadi groups define 
themselves, the United States should not actively frame our 
counterterrorism campaign in religious terms. We have to be able to 
walk and chew gum at the same time. We must recognize the ideological 
foundation of these movements, but our communication efforts are not 
particularly nuanced. Walk softly (and do not mention Islam very often) 
but carry a big stick (by empowering moderates who criticize jihadis 
and cracking down on primarily Saudi efforts to promote destructive 
ideology). It is important to remember that jihadis kill far more 
Muslims than they do Americans. With that in mind, we might want to 
look at terms like ``takfiris'' (a term that reflects their hatred 
toward Muslims) or ``kharijites'' (a historical term for a despised 
Muslim sect that attacked other Muslims). Throughout Muslim history, 
the religion has been practiced and lived dynamically, by real people. 
In many periods, the Muslim mainstream was more tolerant of minorities 
than in European societies. That tradition is being destroyed today, 
both by the jihadis and by states that fund narrow understandings of 
one of the world's great religious traditions. One danger of defining 
our enemies solely in ideological terms, rather than in how they 
operationalize those ideas politically, is that it may prevent us from 
working with certain allies. There ARE salafi groups that oppose al-
Qaeda; we worked with a number of them in Iraq during the vaunted 
``Awakening''. At the end of the day; we are interested in ideas 
because of what they inspire people to do; it's the actions that count. 
With that in mind, lets not define our enemies so broadly that we 
prevent areas of potential collaboration.

                                  [all]
</pre></body></html>
